January 15, 2009

MICHAEL J. DALEY
VICE PRESIDENT, PACIFIC AREA OPERATIONS

SUBJECT:      Audit Report – Sierra Coastal District – Risk-Based Financial Audit
              (Report Number FF-AR-09-072)

This report presents the results of our audit of high-risk financial controls in the Sierra
Coastal District (Project Number 08BD017FF000). We conducted this audit at five post
offices, stations, and branches (units):

         This audit is self-initiated and addresses financial risk. See Appendix A for
additional information about this audit.

Conclusion

Based on the items we reviewed, internal controls over money order and stamp
accountability were not in place and effective at three units. In addition, we identified
various internal control and compliance issues at all five units. Specifically:

   •   Five units had a total of 10,282 unrecorded or missing money orders.
   •   Four units maintained over $450,000 in excess retail floor stock.
   •   Three units retained a total of more than $260,000 in redeemed stamp stock
       rather than returning it to the stamp distribution office (SDO) for destruction.
   •   Three units could provide no evidence of unit reserve counts for the past 8 years.
   •   Three units had their floor stock and unit reserve accountabilities managed by
                                      also transferred stamp stock between the units.
   •   One unit did not control the vending accountability, resulting in a shortage of
       $2,258.
   •   Two units did not reconcile, research, or resolve outstanding employee items and
       salary advances totaling $37,741.
   •   One unit did not have proper supporting documentation for $4,113 of the
       disbursements reviewed.

See Appendix B for our detailed analysis of the findings, Appendix C for the results of our
accountability examinations, and Appendix D for the internal control deficiencies for each
unit.
Sierra Coastal District –                                                                            FF-AR-09-072
 Risk-Based Financial Audit


We believe these conditions are attributable primarily to insufficient managerial oversight
of financial operations at the units.
                                        years of experience and knew the required
procedures, but said they faced significant time constraints




We judgmentally selected the five units based on risk factors using the U.S. Postal
Service Office of Inspector General (OIG) Financial Risk Model (FRM)2 and as such, we
did not determine whether financial controls at other post offices in the Sierra Coastal
District are in place and effective. However, we are concerned that the money order and
stamp accountability issues identified could be indicative of similar issues at other units
within the Sierra Coastal District. For example, the FRM shows approximately 99 units in
the Sierra Coastal District with floor stock inventory exceeding authorized levels by over
50 percent, as determined by unit sales.3 In addition, separate from this audit, we
performed a number of randomly selected audits of post offices in the Sierra Coastal
District over the last 3 years. In four of those audits, we reported money order and/or
stamp accountability issues.

Until the managerial oversight of financial operations improves and the financial controls
are functioning as prescribed, the Postal Service has a significantly increased risk of
financial losses in the Sierra Coastal District. Appendix E shows a $135,938 monetary
impact for recoverable questioned costs of $61,433 and unrecoverable questioned costs
of $74,505.4 Appendix F shows a $4,834,996 non-monetary impact for accountable
items at risk.5




1
2
  For additional information on the FRM, see Appendix A.
3
  Based on data extracted from the Enterprise Data Warehouse as of June 30, 2008. The 99 units utilize the Point of
Service (POS) system.
4
  Questioned costs are costs that are unreasonable, unnecessary, unsupported, or an alleged violation of laws or
regulations.
5
  Assets or accountable items (for example, cash, stamps, and money orders) that are at risk of loss because of
inadequate internal controls.




                                                          2
Sierra Coastal District –                                                        FF-AR-09-072
 Risk-Based Financial Audit


We recommend the Vice President, Pacific Area Operations, direct the District Manager,
Sierra Coastal District, to:

    1. Develop and implement an action plan with milestones to address the internal
       control issues at the units identified in this report, as well as the money order and
       stamp accountability issues district-wide.

Management’s Comments

Management agreed with the findings, recommendation, and monetary and non-
monetary impacts. Management provided an action plan with milestones to address the
issues identified in the report. They plan to implement corrective actions by March 30,
2009. See Appendix G for management’s comments and the action plan, in their
entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation and
corrective actions should resolve the issues identified in the report.

The OIG considers the recommendation significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action is completed. The recommendation should not be closed in the follow-
up tracking system until the OIG provides written confirmation that the recommendation
can be closed.

We will report a monetary impact of $135,938 for recoverable questioned costs of
$61,433 and unrecoverable questioned costs of $74,505, and non-monetary impact of
$4,834,996 for accountable items at risk, in our Semiannual Report to Congress.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Linda Libician-Welch, Director,
Field Financial – West, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments




                                              3
Sierra Coastal District –         FF-AR-09-072
 Risk-Based Financial Audit


cc: H. Glen Walker
    Lynn Malcolm
    Vincent H. DeVito, Jr.
    Stephen J. Nickerson
    Steven R. Phelps
    Kerry L. Wolny
    Katherine S. Banks




                              4
Sierra Coastal District –                                                        FF-AR-09-072
 Risk-Based Financial Audit


                              APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Post offices are the initial level where the U.S. Postal Service recognizes revenue from
operations. The term “post offices” includes main offices, stations, and branches. The
postmasters or installation heads are responsible for collecting all receipts to which the
offices are entitled, accounting for all funds entrusted to them, and ensuring the offices
meet all revenue and accounting objectives.

The Sierra Coastal District is in the Pacific Area and includes approximately 188 post
offices with the POS system; these post offices reported more than $263 million of
revenue in fiscal year (FY) 2008. The five units addressed in this report reported
approximately $15.2 million of revenue during this period.6

The OIG performs periodic financial risk assessments. Based on financial data in the
Enterprise Data Warehouse, the OIG developed a Financial Risk Model which ranks the
Postal Service’s 80 districts with respect to specific financial risk indicators. We selected
the Sierra Coastal District because risk indicators in our model suggested the district was
a high financial risk compared to others around the country. Second and third quarter FY
2008 data ranked this district as the fourth and second highest risk district, respectively.
The risk factors in our financial risk model are the following.

1.      Revenue – all revenue (income) associated at a unit.

2.      Local Purchases – purchases made for supplies and services using cash or no-fee
        money orders.

3.      Refunds – refunds can be made for postage, fees, and other services at a
        customer’s request.

4.      Miscellaneous Expenses – include bank deposit differences and other
        discrepancies.

5.      Non-Local Purchases – all expenses for local units (such as cleaning and utilities)
        paid centrally through the San Mateo Accounting Service Center.

6.      Clerk Cash Management – measures whether units are complying with
        requirements over clerks’ cash, including whether cash is counted at the prescribed
        frequency and whether the amount of cash clerks maintain is within limits Postal
        Service policy prescribes.




6
    Data obtained from the Standard Accounting for Retail (SAFR) system.




                                                           5
Sierra Coastal District –                                                        FF-AR-09-072
 Risk-Based Financial Audit


7.       Office Cash Management – measures whether units are maintaining the amount of
         cash Postal Service policy requires.

8.       Employee Related Items – include amounts owed to the Postal Service for salary
         and travel advances and shortages and overages resulting from clerks' stamp and
         cash counts.

9.       Customer Account Management – measures districts with the highest percentage of
         customer account balance differences comparing source data to accounting
         records.

10. Retail Stamp Stock Management – amount of stamp stock a post office can
    maintain for sale to the public and the frequency with which the post office should
    count the stock.

11. Overall Unit Stamp Stock Management – total amount of stamp stock in excess of
    authorized levels, which is calculated based on prior year sales according to Postal
    Service policy. This includes the amount directly sold to the public and the amount
    held in the inventory.

12. Contract Postal Units Management – measures the number of units with the most
    contract postal unit stock at risk. A contract postal unit is a privately operated entity
    providing most postal retail services.

In developing risk scores for each of these factors, we assign a weight to each based on
our previous audits and investigative results.

OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of our audit were to determine whether:

     •    Internal controls over money order and stamp accountability were in place and
          effective.
     •    Internal controls over judgmentally selected employee items and local
          disbursements were in place and effective.

To accomplish our objectives, we audited five judgmentally selected Sierra Coastal
District units. We initially selected the following three sites for audit based




                                              6
Sierra Coastal District –                                                      FF-AR-09-072
 Risk-Based Financial Audit


In performing our work at the                       , we identified issues related to
transfers of stock that prompted us to select two additional units for audit:


At each unit, we conducted counts of the unit reserve and retail floor stock, reviewed
related accountability examination records, and analyzed unit actions to address
previous stamp stock shortages. For employee items and local disbursements, we
reviewed transactions generated by the                      and                        for
the July reporting period, FY 2008, and transactions generated by the
                                             for the August reporting period, FY 2008.

We traced recorded financial transactions to and from supporting documentation and
assessed the reliability of computerized data by verifying the computer records to source
documents. We used Postal Service instructions, manuals, policies, and procedures as
criteria to evaluate internal controls and data reliability. We interviewed supervisors and
employees and observed operations at these judgmentally selected Postal Service sites.
We interviewed the district finance manager to determine what procedures the district
had in place to monitor inventory accountability, employee items, and disbursements.

We conducted this audit from August 2008 through January 2009 in accordance with
generally accepted government auditing standards and included tests of internal controls
that were necessary under the circumstances. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objectives. We discussed our observations and conclusions with district
management officials on November 13, 2008, and included their comments where
appropriate.




                                             7
Sierra Coastal District –                                                            FF-AR-09-072
 Risk-Based Financial Audit


PRIOR AUDIT COVERAGE

The OIG issued the following financial audit reports for the Sierra Coastal District within
the past 3 years.

                                    Final                       Non-
                      Report       Report         Monetary    Monetary
  Report Title       Number          Date          Impact      Impact           Report Results
FY 2005            FF-AR-05-156   6/24/2005        $123,040              -   This report identified
Financial                                                                    and made
Installation                                                                 recommendations to
Audit –                                                                      address internal
x                                                                            control and
                                                                             compliance issues,
                                                                             such as cash and
                                                                             stamp
                                                                             accountabilities,
California                                                                                and
                                                                             vending.
FY 2008            FF-AR-08-145   3/27/2008          $1,227    $629,901      This report identified
Financial                                                                    and made
Installation                                                                 recommendations to
Audit –                                                                      address internal
x                                                                            control and
x                                                                            compliance issues
x                                                                            related to stamp,
California                                                                   cash, and money
                                                                             order accountabilities.
FY 2008            FF-AR-08-177   5/20/2008          $8,322    $145,234      This report identified
Financial                                                                    and made
Installation                                                                 recommendations to
Audit –                                                                      address internal
x                                                                            control and
x                                                                            compliance issues
x                                                                            related to stamp,
x                                                                            cash, and money
                                                                             order accountabilities,
California                                                                   and Voyager card
                                                                             personal identification
                                                                             numbers.




                                              8
Sierra Coastal District –                                                        FF-AR-09-072
 Risk-Based Financial Audit


FY 2008            FF-AR-08-203   6/13/2008             -     $11,235    This report identified
Financial                                                                and made
Installation                                                             recommendations to
Audit –                                                                  address internal
x                                                                        control and
x                                                                        compliance issues
California                                                               related to stamp
                                                                         accountabilities,
                                                                         inactive customer
                                                                         accounts, passport
                                                                         acceptance, and
                                                                         Voyager cards.
FY 2008            FF-AR-08-219   6/26/2008       $48,214   $1,767,566   This report identified
Financial                                                                and made
Installation                                                             recommendations to
Audit –                                                                  address internal
x                                                                        control and
x                                                                        compliance issues
x                                                                        related to money
California                                                               order accountabilities,
                                                                         inactive customer
                                                                         accounts, unresolved
                                                                         employee items,
                                                                         disbursements,
                                                                         vending,
                                                                         safeguarding assets,
                                                                         and payroll.




                                              9
Sierra Coastal District –                                                                                 FF-AR-09-072
 Risk-Based Financial Audit


                                  APPENDIX B: DETAILED ANALYSIS

Money Order Procedures Not Followed

Management at all five units did not properly account for a total of 7,336 unrecorded
money orders valued at $2,934,400.7 For example, the supervisor for
                                              kept over 6,000 unrecorded money orders
because he was unaware of the procedures for disposal. These money orders included
1,900 POS- and 5,436 Integrated Retail Terminal (IRT)-type money orders.




In addition, management at the
          was unaware of missing money orders from their units. We identified 2,946
missing POS money orders, which we value at $1,178,400.

Overall, management stated they did not know how to handle the unrecorded money
orders and cited time constraints and other priority work as the reason for not monitoring
for missing money orders. See Appendix F for the non-monetary impact associated with
unrecorded and missing money orders at each applicable unit.

Stamp Stock Limits Exceeded

Retail floor stock levels at four of the five units exceeded limits — ranging from 165 to
518 percent — for a total of $455,594.8 In addition, three units exceeded total stock
limits ranging from 12 to 48 percent, for a total of $254,315.9

Overall, management cited time constraints as the reason for exceeding the stamp stock
limits. For example, the                                              maintained quantities
of bulk rate coils in the floor stock for mailers who came in regularly because he was not
always available and customers did not want to wait.10 Other supervisors stated they
kept high floor stock levels because they managed more than one unit and were not
always available when stock was low.

See Appendix F for the non-monetary impact associated with excess floor stock at the
four units.




7
  The OIG standard values blank money orders at $400 each.
8
  The four units’ allowable threshold for retail floor stock was $168,644 during their respective audit scope periods of
August and September 2008.
9
  The three units’ maximum authorized limit was $872,530 during their respective audit scope periods of August and
September 2008.
10
   Bulk rate coils are rolls of precancelled stamps used by business mailers for mass mailings.




                                                            10
Sierra Coastal District –                                                        FF-AR-09-072
 Risk-Based Financial Audit


Redeemed Stamp Stock Not Returned to the Stamp Distribution Office

Management at the                                                         Stations did not
return redeemed stamp stock totaling $266,602 to the SDO.
                            cited time constraints and other priority work as the cause.
See Appendix F for the non-monetary impact associated with unreturned redeemed
stock at these three units.

Stamp Examination Procedures Not Followed

Management at the
Stations did not count the unit reserve stock at the required frequencies. For example,
officials at the                                     Stations could not provide
documentation of ever performing a unit reserve count, while management at the
                        provided documentation of last performing a unit reserve count in
June 2000. Overall, management stated they did not perform the counts due to
inadequate oversight. The Financial Control and Support (FCS) Manager stated the
district has a system in place that requires units to record unit reserve count results and
submit documentation in an effort to track and monitor compliance. However, the units
do not always send the documentation to the district as required.

Stamp Security Controls Not Functioning

Internal controls over stamp stock at        of the locations were not in place and
effective.
                                                                                  In
addition,                regularly issued stock directly from the unit reserve to the retail
floor stock and physically transferred stamp stock among

                                                                          In addition,
          cited time constraints as the reason for controlling stock                    . The
combined value of retail floor stock and unit reserve stock at                  totaled over
$900,000.

Vending Controls Not Followed

Management at the                         did not close the vending credit, transfer the
stamp stock to the unit reserve, and return the stock to the SDO after deactivating and
removing the machine from service in                . In addition,               removed
stamp stock from the machine while the vending clerk was on leave. We counted the
stock and identified a $2,258 shortage in the $11,703 vending accountability.
                                             , cited time constraints and other priority
issues for not closing the accountability and returning the stamp stock. See Appendix E
for the monetary impact associated with the vending shortage.




                                              11
Sierra Coastal District –                                                           FF-AR-09-072
 Risk-Based Financial Audit


Outstanding Employee Items Not Monitored

Management at the                                            Stations did not always
reconcile, research, or resolve outstanding employee items and salary advances totaling
$37,741. At one unit, outstanding items were not reconciled for over 1 year.
                          were aware of the outstanding balances but cited time
constraints and other priority work for not monitoring outstanding items. The FCS
Manager advised us that FCS is currently working with units to resolve outstanding
employee items prior to FY 2008. See Appendix E for the monetary impact associated
with the unresolved employee items at these two units.

Disbursements Not Supported

                       did not have proper supporting documentation for all
disbursements. Specifically, of 58 transactions totaling $15,465 reviewed, 38 totaling
$4,113 had either incomplete or missing documentation.11
                                                       were unaware that the required
documentation was not on file. See Appendix E for the monetary impact associated with
the unsupported disbursements.

See Appendix D for a list of the specific internal control issues identified at the individual
units and the applicable criteria.




11
     Disbursements were judgmentally selected between October 2005 and June 2008.




                                                        12
        Sierra Coastal District –                                                                                 FF-AR-09-072
         Risk-Based Financial Audit


                                      APPENDIX C: ACCOUNTABILITY EXAMINATION SUMMARY

        This table presents the results of accountability examinations performed during the audit, rounded to the nearest
        dollar. Shortages and overages presented are the total value of all shortages and overages identified.



                                                                                       Segment


                                           Unit Reserve          Retail Floor Stock              Vending            Total Value Of All


Unit Name                               Overage    Shortage     Overage       Shortage       Overage   Shortage   Overage        Shortage

                                          $1,905            -             -          $359          -     $2,258     $1,905          $2,617


                                                     $5,534               -              -         -          -            -         5,534


                                          52,340            -             -         65,385         -          -     52,340          65,385


                                               -          223    $19,518                 -         -          -     19,518            223


                                               -     17,935               -          2,390         -          -            -        20,325

Total                                    $54,245    $23,692      $19,518        $68,134            -     $2,258    $73,763         $94,084




                                                                     13
                                                           Restricted Information
            Sierra Coastal District –                                                                                                         FF-AR-09-072
             Risk-Based Financial Audit


                                                                        APPENDIX D: AUDIT FINDINGS




                                                                                                                                   Total
Internal Control Deficiency12
The unit did not:                                                                                                                                            Criteria
                                                                        Money Order and Stamp Accountability
                                                                                                                                           Handbook F-101, Field Accounting
                                                                             X            X           X           X         X      5
Properly account for money orders.                                                                                                         Procedures, Sections 10-5.3 and 14-3
Maintain retail floor stock levels within the 2-week postage
                                                                             X            X           X                     X      4       Handbook F-101, Section 14-2.3
sales limit.
                                                                                                                                           Handbook F-101, Section 11-3.4 and Postal
Maintain total stamp stock level within the prescribed limits.                            X           X                     X      3
                                                                                                                                           Bulletin 22230 (4/10/08)
Monitor redeemed stamp stock levels and return stock to
                                                                                                      X           X         X      3       Handbook F-101, Section 11-6.2
the SDO.
Perform unit reserve accountability examinations at the
                                                                                          X           X           X         X      4       Handbook F-101, Section 13-3.1
required frequency.
Properly document retail floor stock counts and obtain the
                                                                                          X                                        1       Handbook F-101, Sections 14-2.6 and 14-2.7
signature of all counters.
                                                                                                                                           Handbook PO-102, Self-Service Vending
Properly close the vending credit and return stamp stock to
                                                                             X                                                     1       Operational and Marketing Program,
the SDO.
                                                                                                                                           Sections 533.12 and 582.11
Control unit reserve and retail floor stock and informally                                                                                 Handbook F-101, Sections 14-2.2 and
                                                                                                      X           X         X      3
transferred stock with other units.                                                                                                        11.10.3
                                                                                      Employee Items

Monitor and resolve outstanding employee items.                              X            X                                        2       Handbook F-101, Section 15-1.3

                                                                                       Disbursements
Follow proper disbursement procedures and maintain
                                                                             X                                                     1       Handbook F-101, Section 21-2.2
proper supporting documentation.



            12
                 An “X” indicates the respective location where we identified the condition noted in the deficiency description.

                                                                                             14
                                                                                   Restricted Information
Sierra Coastal District –                                                                                                    FF-AR-09-072
 Risk-Based Financial Audit


                                             APPENDIX E: MONETARY IMPACT SUMMARY


                                                                   Questioned Costs
                                                                                                                            Total
 Finding
Description                                                                                              Unrecoverable             Recoverable
Unit reserve
                                    -     $5,534                   -           $223        $17,935                            -            $23,692
shortages13
Unresolved
employee                  $27,391         10,350                   -                -                -                        -             37,741
items
Retail floor
                                359                -     $65,385                    -          2,390                $68,134                         -
stock shortages14

Vending
                              2,258                -               -                -                -                 2,258                        -
shortage

Unsupported
                              4,113                -               -                -                -               4,11315                        -
disbursements

Totals                    $34,121        $15,884         $65,385               $223        $20,325                  $74,505                $61,433




13
   The shortage was a result of our examination of the unit reserve conducted with unit management. This amount is considered recoverable and will result in
a charge to the stock custodian.
14
   The shortage was a result of our examination of retail floor stock conducted with unit management. This amount is considered unrecoverable and will result
in an expense charged to the unit.
15
   We consider these questioned costs unsupported because the disbursements had either incomplete or missing documentation.


                                                                             15
Sierra Coastal District –                                                                                                        FF-AR-09-072
 Risk-Based Financial Audit


                                              APPENDIX F: NON-MONETARY IMPACT SUMMARY


                                                              Accountable Items at Risk16

 Finding
Description                                                                                                                                     Total

Excess floor
                               $140,178              $153,898               $108,271                          -           $53,247                 $455,594
stock

Unreturned
redeemed                                  -                     -            117,471                $34,347               114,784                  266,602
stock
Unrecorded
                                273,600                 79,200               988,000              1,186,400               407,200                 2,934,400
money orders
Missing
                                          -               6,800                76,800             1,094,800                         -             1,178,400
money orders

Totals                         $413,778              $239,898            $1,290,542             $2,315,547              $575,231                $4,834,996




16
     Accountable items at risk are items, such as stamps and money orders, that are at risk of loss because of inadequate internal controls.




                                                                                16
Sierra Coastal District –                                  FF-AR-09-072
 Risk-Based Financial Audit




                       APPENDIX G: MANAGEMENT’S COMMENTS




                                           17
                                 Restricted Information
Sierra Coastal District –          FF-AR-09-072
 Risk-Based Financial Audit




                              18
Sierra Coastal District –          FF-AR-09-072
 Risk-Based Financial Audit




                              19
Sierra Coastal District –          FF-AR-09-072
 Risk-Based Financial Audit




                              20
Sierra Coastal District –          FF-AR-09-072
 Risk-Based Financial Audit




                              21
Sierra Coastal District –          FF-AR-09-072
 Risk-Based Financial Audit




                              22
